              The Indian Tribal Governments Office Should
              Reevaluate the Compliance Check Program to
                        Make the Best Use of Its
                           Limited Resources

                                 September 2005

                       Reference Number: 2005-10-160




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                 September 30, 2005



      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION



      FROM:                        Pamela J. Gardiner
                                   Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - The Indian Tribal Governments Office
                                   Should Reevaluate the Compliance Check Program to Make the
                                   Best Use of Its Limited Resources (Audit # 200510022)


      This report presents the results of our review to determine whether the Internal
      Revenue Service (IRS) Indian Tribal Governments (ITG) office management effectively
      used the ITG office Compliance Check Program to understand its customers’ needs and
      to identify appropriate remedies to compliance issues. The information presented in this
      report was derived primarily from two audits recently conducted on the ITG office
      Compliance Check Program. In Fiscal Year (FY) 2004, we reviewed the selection and
      assignment of compliance check cases.1 In FY 2005, we reviewed the execution and
      results of compliance check cases.2
      The ITG office is responsible for administering Federal tax laws for the
      564 Federally recognized Indian Tribal governments and their approximately
      2,100 related entities. The ITG office performs compliance checks to understand
      customer needs and to identify appropriate remedies for compliance issues.
      Compliance checks are an important part of the ITG office’s strategy to reduce the need
      for enforcement by keeping abreast of trends that are emerging among the tax filing and
      payment characteristics of tribal entities.



      1
        The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to Indian Tribal
      Governments Most in Need of Compliance Checks (Reference Number 2004-10-191, dated September 2004).
      2
        The Indian Tribal Governments Office Can Improve the Effectiveness, Consistency, and Efficiency of Compliance
      Checks (Reference Number 2005-10-158, dated September 2005).
                                                        2

In summary, the Compliance Check Program developed by the ITG office was effective
in enabling ITG office management to achieve their initial priorities of identifying their
customers, obtaining information about the needs of their customer base, and
developing Government-to-Government relationships with tribal leadership. In addition,
compliance checks provide valuable information to ITG office management that is not
obtained through other types of compliance activities. However, in considering the
overall impact of the Compliance Check Program on the ITG office’s compliance goals,
we identified opportunities to enhance the Program to enable ITG office management to
more fully achieve their goal of identifying remedies for compliance issues. Specifically,
we determined the ITG office Compliance Check Program has the following limitations:
•   The formulas used in data analyses to identify compliance check cases were not
    always effective at differentiating between high and low risk compliance checks, and
    ITG office management does not incorporate the results of prior compliance checks
    into the ITG Inventory Database3 to objectively improve case selection.
•   ITG office management has initiated efforts to try to determine in the future what the
    collective impact of compliance checks is on their customers’ understanding and
    compliance with Federal tax laws or the long-term impact on compliance levels.
    However, they currently cannot determine this because information such as the
    reasons for filing delinquent returns is not available and they do not have a sufficient
    pool of completed cases and subsequent year filing behavior. In addition, the IRS is
    not always aware of and cannot predict the external factors that may affect a tribal
    entity’s filing behavior.
•   ITG field specialists’ work in conducting compliance checks was not always
    consistent with office guidelines.
•   The ITG office’s various databases used for controlling compliance check inventory
    were not designed as a nationwide management information system and, as a
    result, provided only limited inventory control capabilities. For example, the
    databases did not provide the detailed cycle time information to effectively monitor
    compliance check progress or the current status of actions taken to complete cases.
Because of the limitations identified, the Compliance Check Program as currently
configured may not be the most effective use of ITG office resources. Addressing the
limitations should enable ITG office management to have a more effective and efficient
Program that identifies remedies to tribal entity compliance issues.
We recommended the Director, ITG, Tax Exempt and Government Entities (TE/GE)
Division, clarify the guidelines for field specialists to complete the risk assessment



3
 The ITG Database was developed over the past several years and contains data from the IRS’ main database
(Master File), the Bureau of Indian Affairs, and other sources on Indian Tribal governments and their related
enterprises. The ITG Database is made up in part by the ITG Inventory Database, the Outreach Assignment
Database, and the Tribal Compliance Database. The ITG Inventory Database was developed by the ITG Outreach,
Planning, and Review office in FY 2001 to analyze filing and payment characteristics and to control nonexamination
activities, such as compliance checks and tip rate reviews.
                                                        3

portion of the Compliance Check Report4 to ensure more consistency and reliability of
the risk assessment information. Additionally, the Director, ITG, should reevaluate the
process used for the Compliance Check Program to address limitations in the Program
and include in one of the planned compliance studies a determination of whether
compliance checks are more beneficial for certain market segments or types of
customers and which customers may require other compliance efforts.
Management’s Response: The Commissioner, TE/GE Division, agreed with our
recommendations and is implementing corrective actions. The Director, ITG,
discontinued the practice of ITG Specialists conducting subjective risk assessments and
is redesigning the Compliance Check template to focus on an objective assessment of
risk; reevaluated the Compliance Check Program and is implementing a self-
Compliance Check program to conserve ITG resources; and has drafted a plan to
attempt to measure the overall effectiveness of Compliance Checks. This study is
planned to address a broad question, including whether they are more beneficial for
certain market segments or types of customers, and which customers may require other
compliance efforts. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by
the report recommendations. Please contact me at (202) 622-6510 if you have
questions or Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters
Operations and Exempt Organizations Programs), at (202) 622-8500.




4
  The Compliance Check Report is a template that documents the results of the compliance check. It includes
information about the tribal entity and contains the field specialist’s assessment of compliance risk. The
Compliance Check Report is used to ensure consistency of completed compliance checks.
           The Indian Tribal Governments Office Should Reevaluate the Compliance
                Check Program to Make the Best Use of Its Limited Resources




                                                  Table of Contents


Background ............................................................................................... Page 1
The Compliance Check Program May Not Be the Most Effective
Use of Indian Tribal Governments Office Resources ................................ Page 3
         Recommendation 1: .......................................................................Page 19
         Recommendation 2: .......................................................................Page 20

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 21
Appendix II – Major Contributors to This Report ....................................... Page 23
Appendix III – Report Distribution List ....................................................... Page 24
Appendix IV – Previous Treasury Inspector General for Tax
Administration Reviews of the Indian Tribal Governments
Office Compliance Check Program ........................................................... Page 25
Appendix V – Management’s Response to the Draft Report ..................... Page 28
       The Indian Tribal Governments Office Should Reevaluate the Compliance
            Check Program to Make the Best Use of Its Limited Resources

                                The Internal Revenue Service’s (IRS) Indian Tribal
Background
                                Governments (ITG) office is responsible for administering
                                Federal tax laws for the 564 Federally recognized Indian
                                Tribal governments (tribes) and their approximately
                                2,100 related entities. The ITG office is part of the
                                Government Entities function of the Tax Exempt and
                                Government Entities (TE/GE) Division. The mission of the
                                ITG office is to provide its customers top-quality services
                                by helping them understand and comply with applicable
                                laws and to protect the public interest by applying the tax
                                law with integrity and fairness to all.
                                The ITG office was established as part of the IRS in
                                Fiscal Year (FY) 2000. Prior to this, the IRS did not have a
                                coordinated effort to interact with tribal governments and
                                had not identified the full customer population or the
                                compliance needs within that customer base. Another
                                challenge for the ITG office during its initial startup period
                                was facilitating the IRS’ efforts to implement Executive
                                Order 13,1751 by creating Government-to-Government
                                relationships between the IRS and the various tribes. The
                                Executive Order also required all Federal Government
                                agencies to consult with tribes on a collaborative basis prior
                                to the formulation and enactment of new policies.
                                To help accomplish its mission, the ITG office works with
                                tribes to lessen the need for enforcement by keeping abreast
                                of trends that are emerging among the tax filing and
                                payment characteristics of tribal entities. One of the ways
                                this is achieved is with compliance checks.2 The ITG office
                                began performing compliance checks in FY 2001 to obtain
                                current information on its customers, better understand
                                customers’ needs, and identify appropriate remedies to
                                compliance issues.
                                The ITG office uses a process developed by its Outreach,
                                Planning, and Review (OPR) office to identify the tribal
                                entities most in need of a compliance check. The process
                                uses preset formulas and other criteria to analyze data from

                                1
                                  Exec. Order No. 13,175, 3 C.F.R. 304 (2001), reprinted in
                                25 U.S.C. § 450 (2001).
                                2
                                  Unlike an examination or audit, a compliance check does not seek to
                                determine a tax liability for any particular period; it is voluntary, and the
                                tribe may refuse to participate in a compliance check without penalty.
                                                                                                     Page 1
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         employment tax and various information returns and
                         external data from other Federal Government agencies, web
                         sites, and a commercial database from Tribal Data
                         Resources. The field group managers3 contact the OPR
                         office Classification and Delivery Specialist to request
                         workloads for field specialists by specific geographical
                         territory and experience level. Tribal leadership may also
                         request a compliance check, or an ITG office field group
                         may initiate a compliance check when it identifies a need
                         for one based on the group’s knowledge of the tribe.
                         During a compliance check, field specialists interview key
                         personnel in the tribe, inquire about the selected tribal
                         entity, and ask additional questions about filing
                         requirements for the tribe to determine whether all record
                         keeping and information reporting requirements are being
                         met. The field specialists enter information obtained during
                         the compliance check on an ITG office Compliance Check
                         Report.4 The template outlines the minimal information that
                         should be obtained during the compliance check. It also
                         provides a place for the field specialist’s assessment of the
                         compliance risk for the tribal entity for employment tax,
                         information and cash transaction reporting, tip reporting,
                         and excise taxes and any recommendations for future
                         activity needed for that tribal entity.
                         The information presented in this report is derived primarily
                         from two audits recently conducted on the ITG office
                         Compliance Check Program. In FY 2004, we reviewed the
                         selection and assignment of compliance check cases.5 In
                         FY 2005, we reviewed the execution and results of



                         3
                           ITG office field groups are composed of a manager and field
                         specialists who interact with tribes to perform outreach, education, and
                         examination activities.
                         4
                           The Compliance Check Report is a template that documents the results
                         of the compliance check. It includes information about the tribal entity
                         and contains the field specialist’s assessment of compliance risk. The
                         Compliance Check Report is used to ensure consistency among
                         completed compliance checks.
                         5
                           The Process for Assigning Cases Should Be Strengthened to Provide
                         Better Coverage to Indian Tribal Governments Most in Need of
                         Compliance Checks (Reference Number 2004-10-191, dated
                         September 2004).
                                                                                          Page 2
         The Indian Tribal Governments Office Should Reevaluate the Compliance
              Check Program to Make the Best Use of Its Limited Resources

                                  compliance check cases.6 Appendix IV presents details of
                                  these audits and the status of the corrective actions
                                  implemented by the ITG office.
                                  This review was performed at the ITG office National
                                  Headquarters in Washington, D.C., during the period May
                                  through June 2005, in accordance with Government
                                  Auditing Standards. Detailed information on our audit
                                  objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  The Compliance Check Program developed by the ITG
The Compliance Check
                                  office was effective in enabling ITG office management to
Program May Not Be the Most
                                  achieve their initial priorities of identifying their customers,
Effective Use of Indian Tribal
                                  obtaining information about the needs of their customer
Governments Office Resources
                                  base, and developing Government-to-Government
                                  relationships with tribal leadership. In addition, compliance
                                  checks provide valuable information to ITG office
                                  management that is not obtained through other types of
                                  compliance activities. For example, the process for
                                  conducting compliance checks should enable the ITG office
                                  to identify any new or closed tribal entities and to determine
                                  the risk of noncompliance in certain key areas contained in
                                  the Compliance Check Report. If more specific assistance
                                  is needed by a tribal entity, the field specialist can either
                                  provide the assistance during the compliance check visit or
                                  schedule an education and outreach visit for the future. In
                                  addition, if a tribal entity agrees to complete an obligation
                                  such as submission of a delinquent return, or if an
                                  examination is needed, the OPR office will schedule
                                  additional follow-up work for that tribal entity. For the first
                                  4 years of the Program, the ITG office conducted
                                  511 compliance checks of tribal entities.7



                                  6
                                    The Indian Tribal Governments Office Can Improve the Effectiveness,
                                  Consistency, and Efficiency of Compliance Checks (Reference Number
                                  2005-10-158, dated September 2005).
                                  7
                                    Initially, ITG office management made assignments of an entire tribe.
                                  However, tribes had multiple entities, and beginning in July 2003,
                                  assignments were made for single entities only. Therefore, the actual
                                  number of compliance checks for single entities completed is higher
                                  than what ITG office records reflect.
                                                                                                   Page 3
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         In considering the overall impact of the Compliance Check
                         Program on the ITG office’s compliance goals, we
                         identified opportunities to enhance the Program to enable
                         ITG office management to more fully achieve their goal of
                         identifying remedies for compliance issues. Specifically,
                         we determined the ITG office Compliance Check Program
                         has the following limitations:
                         •   ITG office management used a process for identifying
                             compliance checks based on several preset formulas and
                             other criteria to rank and assign tribal-related entities for
                             compliance work. These formulas were periodically
                             revised or discontinued and new ones created.
                             However, we determined the formulas were not always
                             effective at differentiating between high and low risk
                             compliance checks. In addition, ITG office management
                             does not incorporate the results of prior compliance
                             checks into the ITG Inventory Database8 to objectively
                             improve case selection. For example, if the specialist
                             determined there was a low or no risk of noncompliance
                             for a tribal entity because the tribe was not required to
                             file, there was no process to build this risk assessment
                             into the ITG Inventory Database. We believe the actual
                             risk assessment from a compliance check represents
                             valuable information that ITG office management can
                             use to improve their ability to select the highest risk
                             cases.
                         •   ITG office management has initiated efforts to try
                             to determine in the future what the collective impact of
                             compliance checks are on their customers’
                             understanding and compliance with Federal tax laws or
                             the long-term impact on compliance levels. However,
                             they currently cannot determine this because
                             information such as the reasons for filing delinquent

                         8
                           The ITG Database was developed over the past several years and
                         contains data from the IRS’ main database (Master File), the Bureau of
                         Indian Affairs, and other sources on Indian Tribal governments and their
                         related enterprises. The ITG Database is made up in part by the ITG
                         Inventory Database, the Outreach Assignment Database, and the Tribal
                         Compliance Database. The ITG Inventory Database was developed by
                         the ITG Outreach, Planning, and Review office in FY 2001 to analyze
                         filing and payment characteristics and to control nonexamination
                         activities, such as compliance checks and tip rate reviews.
                                                                                          Page 4
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                             returns is not available and they do not have a sufficient
                             pool of completed cases and subsequent year filing
                             behavior. In addition, the IRS is not always aware of
                             and cannot predict the external factors that may affect a
                             tribal entity’s filing behavior. We believe ITG office
                             management should include in one of the planned
                             compliance studies a determination of whether
                             compliance checks would be more effective with some
                             segments of tribal entities or types of customers and
                             which customers may require other compliance efforts
                             (where compliance checks may not have been beneficial
                             for future compliance).
                         •   ITG office field specialists’ work in conducting
                             compliance checks was not always consistent with office
                             guidelines.
                         •   The ITG office’s various databases used for controlling
                             compliance check inventory were not designed as a
                             nationwide management information system and, as a
                             result, provided only limited inventory control
                             capabilities. For example, the databases did not provide
                             the detailed cycle time information to effectively
                             monitor compliance check progress or the current status
                             of actions taken to complete cases.
                         Because of the limitations identified, the Compliance Check
                         Program as currently configured may not be the most
                         effective use of ITG office resources. Addressing the
                         limitations should enable ITG office management to have a
                         more effective and efficient Program that identifies
                         remedies to tribal entity compliance issues.
                         The ITG office Compliance Check Program comprises a
                         major part of the ITG office’s annual examination budget.
                         The TE/GE Division’s February 3, 2005, Business
                         Performance Review showed that, for FY 2004, the ITG
                         office had 39 Examination Full-Time Equivalents (FTE),9
                         who closed 313 examination cases and completed



                         9
                          A measure of labor hours in which 1 FTE is equal to 8 hours
                         multiplied by the number of compensable days in a particular fiscal
                         year. For FY 2004, 1 FTE was equal to 2,096 staff hours. For FY 2005,
                         1 FTE is equal to 2,088 hours.
                                                                                       Page 5
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         271 compliance checks.10 For FYs 2005 and 2006, ITG
                         office management plans to complete 280 and
                         350 compliance checks, respectively. While the Business
                         Performance Review report does not break down the
                         amount of resources spent on examinations versus
                         compliance checks, it does indicate that a significant part of
                         the field groups’ inventory is devoted to compliance checks.
                         ITG office management advised us approximately 1,165 and
                         1,485 staff days were spent on compliance checks in
                         FYs 2003 and 2004, respectively. The staff days for
                         FY 2004 represent just under 7 staff years, or approximately
                         18 percent of the overall Examination FTEs.
                         The formulas did not effectively identify high risk
                         compliance checks and the ITG Inventory Database was
                         not updated based on the individual results of
                         compliance checks
                         The effectiveness of the compliance check case selection
                         process could be improved by incorporating the results of
                         completed compliance checks and the field specialists’
                         assessment of the risks of noncompliance into the data
                         analyses. This information is crucial to improving the
                         process of identifying the highest risk cases. From our
                         judgmental sample of compliance check cases closed in
                         FY 2004,11 we determined the actual compliance risk as
                         determined by the field specialists was often different from
                         what the analyses showed (i.e., most tribal entities were
                         determined to be at low risk of noncompliance instead of the
                         high risk the data analyses showed). Because compliance
                         check results are not incorporated into the ITG Inventory
                         Database, the ITG office’s process will become less reliable
                         in identifying entities with the highest risk of
                         noncompliance. Further, the ITG office may not identify
                         the most significant compliance needs of its customers or
                         identify remedies for the most significant compliance issues.



                         10
                            The Business Performance Review reported 271 completed
                         compliance checks for FY 2004; the ITG Inventory Database reflected
                         272 completed compliance checks for FY 2004.
                         11
                            During our FY 2005 audit, we tested the effectiveness of the ITG
                         office case selection process by reviewing a judgmental sample of
                         52 of the 272 compliance check cases closed in FY 2004.
                                                                                       Page 6
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         The advantage of using a case selection process based on
                         data analyses and various formulas is that it generally keeps
                         ITG office group managers and field specialists independent
                         of the assignment process. It also provides an objective
                         basis of case selection12 that allows the ITG office group
                         managers to provide the Indian Tribal governments
                         assurance that tribes are not being singled out for reasons
                         other than those identified by the data analyses.
                         The OPR office’s formulas assign scores to each
                         tribal entity. The entities displaying the characteristics of
                         needing a compliance check were given a low data score,
                         and the entities with less need for a compliance check were
                         given a high data score.
                         The ITG office primarily used two of the six formulas
                         (referred to as Formulas A and B) to assign compliance
                         checks during the period July 2003 through May 2004.
                         These 2 formulas13 were used to select 232 of the
                         266 compliance check assignments for that period. During
                         our FY 2004 audit, we determined compliance checks for
                         these two formulas were primarily assigned in order of
                         priority based on the lowest scores, except for a few cases
                         that met other predetermined criteria.
                         While this practice was generally adhered to on a
                         case-by-case basis, ITG office management was not
                         consistent with this practice when considering all five ITG
                         office field groups nationwide. We determined there was a
                         wide variance in scores among the five ITG office field
                         groups for Formula B compliance checks. This occurred
                         because field group managers tended to request work based
                         on workload needs according to the geographic locations or
                         experience level of field specialists rather than in strict
                         priority order based on score. Although these factors had
                         merit when considered individually for each case, when


                         12
                            For example, an entity could be selected because analysis of tax return
                         and other information showed it falls outside of a normal, predetermined
                         range or because the entity did not file a tax return and should have.
                         13
                            During our FY 2004 audit, we reviewed the 2 formulas used to select
                         232 of the 266 compliance checks during the period July 2003 through
                         May 2004. These formulas are designed to address noncompliance
                         identified in the OPR office’s annual data analyses. The remaining
                         four formulas were not used as often and could not be trended.
                                                                                           Page 7
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         combined on a nationwide basis, these factors allowed ITG
                         office field groups to have inconsistent compliance check
                         coverage of the Indian Tribal governments for which they
                         are responsible.
                         Additionally, ITG office management had not determined at
                         what score to stop assigning cases for each formula or how
                         to compare the data scores of the various formulas to know
                         which data scores and which formulas should take priority.
                         As a result, the OPR office Classification and Delivery
                         Specialist used judgment to determine how far up the
                         formula score listings to assign tribal entities for compliance
                         checks and which formulas to use.
                         In our FY 2004 report, we recommended:
                         •    The Director, ITG, provide guidance for field group
                              managers to ensure an appropriate balance of work is
                              requested to achieve the desired number of compliance
                              checks and coverage for their assigned tribes.
                         •    The Director, ITG, gather appropriate data to establish
                              cutoff data scores for the different formulas used in the
                              data analyses, to aid the OPR office Classification and
                              Delivery Specialist in determining when one formula
                              should take priority over another.
                         During our FY 2005 audit, we tested the effectiveness of the
                         ITG office case selection process by reviewing a judgmental
                         sample of 5214 of the 272 compliance check cases closed in
                         FY 2004. Most cases included in our sample were scored
                         at a high risk of noncompliance by the OPR office
                         Classification and Delivery Specialist based on the analyses.
                         However, the ITG office field specialists determined these
                         tribal entities were often at low risk of noncompliance. For
                         many of the cases, field specialists determined the tribal
                         entities did not have a problem with delinquent returns even
                         though the data analyses indicated a high risk for
                         noncompliance in filing the required returns.

                         14
                           We selected a sample of 55 cases that were assigned and closed on the
                         ITG Inventory Database. However, we reviewed 52 cases because
                         compliance checks were not conducted for 3 of the entities in our
                         sample. One entity was an exempt organization and not an ITG office
                         customer, one entity was a defunct business, and another entity declined
                         to have a compliance check conducted.
                                                                                          Page 8
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         •   Field specialists rated only 2 of the 27 entities as at high
                             risk for noncompliance based on the selection formula.
                         •   Field specialists rated 5 of the 27 entities as at high risk
                             of noncompliance in 2 other areas that had not been
                             identified as high risk by the formula.
                         •   For an additional 5 of the 27 entities rated as high risk
                             by the OPR office, the field specialists secured
                             17 delinquent returns. Although 17 returns were
                             obtained, the field specialists rated all of the risk factors
                             as low or not applicable for these 5 cases. This may be
                             an indication that, although the data analyses were
                             correct in identifying a high risk of delinquent returns,
                             the field specialists did not properly document the level
                             of risk.
                         •   In addition, 12 of the 52 compliance check cases in our
                             sample were requested by the tribe or by the ITG office
                             field groups and, therefore, were not selected based on
                             the OPR office Classification and Delivery Specialist’s
                             data analyses. In 3 of these cases, 20 returns were
                             secured by the field specialists. However, only two of
                             the three cases had areas rated by the field specialists as
                             high risk for noncompliance. The remainder of the risk
                             factors for all 12 cases was rated as low or not
                             applicable.
                         ITG office management advised us they do not capture the
                         field specialists’ risk assessments because they are
                         subjective and the field specialists have not been trained to
                         make these judgments consistently. What one field
                         specialist ranks as a high risk, another may rank as a low
                         risk. Additionally, the field specialists may be assessing
                         risk based on the conditions after they have corrected the
                         causes for the high-risk score that generated the compliance
                         check assignment or have provided instructions and
                         education that reduced the risk for future noncompliance.
                         Conditions within the tribal entity also may change after the
                         field specialist’s compliance check is completed, making the
                         risk assessment inaccurate. For example, tribal leadership
                         may change and all new accounting personnel may be put in
                         place, which may increase the risk of noncompliance in the
                         future.

                                                                                    Page 9
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         ITG office management advised they do not incorporate the
                         results of the compliance checks into the ITG Inventory
                         Database for more objective analysis and case selection.
                         Rather, they periodically updated some of the formulas
                         (revised or discontinued some formulas and created new
                         ones based on workload results, employee and customer
                         feedback, and an annual compliance analysis used to select
                         future work). Currently, the OPR office Classification and
                         Delivery Specialist manually reviews the previously
                         completed Compliance Check Reports prior to sending an
                         entity out for an examination or compliance check.
                         However, ITG office field specialists are employees trained
                         to conduct tax examinations and perform compliance
                         checks. With clearer guidance about how to document
                         compliance risks in the Compliance Check Report, field
                         specialists should be able to provide consistent and reliable
                         risk assessments that can be used to validate the data
                         analyses that generated the compliance checks, determine
                         where the risk of noncompliance diminishes for each of the
                         formulas used, and improve the selection process.
                         Additionally, ITG office management stated that one of the
                         main accomplishments of the Compliance Check Program
                         has been to determine the cause or reasons for
                         noncompliance for the individual tribal entities. However,
                         the Compliance Check Report is not designed for the field
                         specialists to record their findings on the causes of
                         noncompliance, so this information is also not captured in
                         the ITG Inventory Database.
                         Methodologies to measure the impact of compliance
                         checks have not been implemented
                         The ITG office Compliance Check Program has been in
                         existence since FY 2001, and ITG office management is
                         continuing to develop the Program to make the case
                         selection process more effective and to gather better data
                         from the ITG office customers. However, ITG office
                         management has not implemented a method to measure
                         compliance levels in their customer base and the impact
                         compliance checks have on overall compliance. As a result,
                         ITG office management does not know if its Compliance
                         Check Program is the best use of its limited resources. By
                         the conclusion of our FY 2005 audit, ITG office

                                                                               Page 10
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         management had drafted a research plan to try to measure
                         the impact that compliance checks have on overall
                         compliance levels for their customers.
                         The Government Performance and Results Act of 199315
                         requires major functions of operations to specify their
                         general goals and objectives in annual plans and include
                         outcome-related goals; to determine the skills, technology,
                         and human capital necessary to achieve these goals; and to
                         determine the management information necessary to
                         monitor whether they are achieving their goals. The number
                         of compliance checks completed each year is a valid
                         measure to help ITG office management understand their
                         customers and to identify the customers’ tax issues,
                         problems, and concerns. However, this number does not
                         measure the impact on voluntary compliance.
                         ITG office management advised us the analysis of the
                         impact of compliance checks could not be performed until a
                         sufficient number of compliance check cases are completed
                         and sufficient time had passed to be able to measure any
                         impact. In addition, they believe that all their work actions
                         have a positive impact on voluntary compliance, but the
                         difficulty in determining such an impact has caused them to
                         use other types of primary measures, such as the number of
                         cases completed.
                         They also advised that measuring the impact of compliance
                         checks on compliance is difficult because information such
                         as the reasons for filing delinquent returns is currently not
                         available. In addition, the IRS is not always aware of and
                         cannot predict the external factors that may affect a tribal
                         entity’s filing behavior. These external factors include
                         periodic tribal management turnovers and the use of
                         accountants, tax attorneys, or other highly experienced
                         payroll specialists by some tribes versus tribes whose
                         bookkeepers may be unfamiliar with the tax laws. For
                         example, the ITG office cannot attribute an increase in a
                         tribe’s filing behavior to the ITG office’s outreach and
                         education efforts because it may be attributable to
                         something else, such as the tribe hiring a more


                         15
                           Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                         sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                                                                        Page 11
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         knowledgeable bookkeeper or accountant. The change in
                         the filing (i.e., increased number of returns filed) is
                         quantifiable; however, the reason for the change is not.
                         Because of the many variables involved, ITG office
                         management advised us they cannot compare the results of
                         compliance checks to all the tribes but must look at the
                         results of compliance checks for tribal entities with similar
                         characteristics.
                         ITG office management has completed a study of
                         one grouping (subset) of the population of tribal entities
                         with similar characteristics in April 2005. However, this
                         study will enable ITG office management to draw only
                         broad conclusions about the tribes and entities within this
                         market segment and does not contain the detailed analysis
                         necessary to determine changes in compliance levels of
                         individual tribal entities. ITG office management is
                         planning another research project to help identify general
                         indicators within two other subsets of the population of
                         tribal entities:
                         •    Outreach activities on the filing of Suspicious Activity
                              Reports16 by tribal entities that would be required to file
                              them.
                         •    Compliance checks on the filing and payment of
                              employment taxes by a specific subset of tribal entities.
                         Without an adequate method to measure the compliance
                         levels and the impact that compliance checks have on
                         compliance in their customer base, ITG office management
                         cannot determine whether compliance checks are achieving
                         the desired benefits to the Federal Government or to their
                         customers. Considering these factors and the importance
                         that the ITG office places on compliance checks in
                         accomplishing its mission, a reevaluation of the impact of
                         the Compliance Check Program on the ITG office’s goals is
                         warranted, including determining whether compliance
                         checks would be more effective for certain market segments


                         16
                            Suspicious Activity Reports are required to be filed by certain
                         businesses (e.g., check cashers, money transmitters, casinos, card clubs,
                         financial institutions, etc.) to report suspicious activities of their
                         customers to the United States Department of the Treasury, Financial
                         Crimes Enforcement Network.
                                                                                          Page 12
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         or types of customers and which customers may require
                         other compliance efforts.
                         Work performed on compliance checks was not always
                         consistent with office guidelines
                         ITG office management developed a Compliance Check
                         Report (template) to ensure ITG office field specialists
                         gather consistent information about tribal entities during
                         compliance checks. In our FY 2005 audit, we determined
                         field specialists prepared Compliance Check Reports for all
                         compliance check cases reviewed. However, we identified
                         instances in which compliance checks were not completed
                         but were reported as such for FY 2004; items were not
                         completed on the Compliance Check Report; and a
                         significant number of delinquent returns were obtained and
                         processed, which is not the focus of compliance checks.
                         •    The OPR office Quality Review (QR) function staff
                              determined 1 of the 52 compliance check cases in our
                              sample did not qualify for closure as a completed
                              compliance check. We also noted during our review of
                              the documentation17 for the 52 sample cases that the
                              OPR office QR function staff identified an additional
                              4 compliance checks closed in FY 2004 that did not
                              qualify as completed compliance checks. We did not
                              evaluate all closed compliance checks for FY 2004,
                              so we do not know the full extent of this issue. An
                              error in a database report formula resulted in four of
                              the five incomplete cases being reported as complete,
                              and a case closing error (i.e., incorrect closing code
                              input to the ITG Inventory Database) resulted in the
                              fifth incomplete case being reported as complete. Errors
                              in database formulas and case closing errors can result in
                              inaccurate information reported from the ITG Inventory
                              Database. This is especially important in light of the
                              ITG office’s annual performance goal measuring the
                              number of compliance checks completed. If cases are

                         17
                           We reviewed Transmittal Documents (Form 3210) for our sample of
                         52 cases. We identified one case from our sample the Quality Review
                         function staff had listed as not qualifying as a completed compliance
                         check. We also identified 4 additional cases, not included in our
                         sample, that were listed on the same Forms 3210 as not qualifying as
                         completed compliance checks.
                                                                                       Page 13
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                              incomplete or incorrectly included in the number of
                              completed compliance checks, ITG office management
                              is at risk of reporting overstated accomplishments for
                              compliance check cases.
                         •    The field specialists did not always include information
                              requiring updates to the ITG Database or the IRS Master
                              File,18 such as new tribal entities or changes to filing
                              requirements, on the Compliance Check Report.
                              However, if the specific information to be updated is not
                              documented in the Compliance Check Report, ITG
                              office management cannot be assured the updates will
                              be completed. If the updates are not completed timely,
                              unnecessary notices could be issued to the tribes.
                         •    ITG office field specialists obtained 344 delinquent
                              returns for 17 cases (16 tribal entities) related to the
                              cases in our sample. The effort to obtain delinquent
                              returns may have been time consuming because the ITG
                              office field specialists sometimes assisted in preparing
                              returns, shipping returns to the IRS Submission
                              Processing site,19 and processing payments. This work,
                              although important in the interest of promoting
                              voluntary compliance and for reducing the burden on
                              customers, meant the ITG office field specialists could
                              not do other ITG office casework.
                              The Small Business/Self-Employed (SB/SE) Division is
                              responsible for obtaining delinquent returns for tribal
                              entities in collection status. ITG office management
                              advised us the SB/SE Division may not attempt to
                              obtain delinquent returns of tribal entities because of the
                              remote locations of some tribes and because of other
                              higher priority work. The ITG office has responsibility
                              for obtaining delinquent returns not yet in collection
                              status. We could not determine if any of the 17 cases
                              were in collection status at the time of the compliance
                              checks.

                         18
                            The IRS database that stores various types of taxpayer account
                         information. This database includes individual, business, and employee
                         plans and exempt organizations data.
                         19
                            The IRS location that processes paper and electronic submissions,
                         corrects errors, and forwards data to the IRS Computing Centers for
                         analysis and posting to taxpayer accounts.
                                                                                       Page 14
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                              ITG office management advised us all IRS employees
                              have an obligation to address noncompliance, including
                              obtaining delinquent returns. The ITG office field
                              specialists attempt to obtain delinquent returns during a
                              compliance check, although this is not the sole purpose
                              or focus of a compliance check. Accepting delinquent
                              returns during a compliance check is viewed as a way of
                              providing better service to their customers and as an
                              opportunity to educate the tribal entities on their filing
                              obligations. ITG office management was monitoring
                              compliance checks to ensure they were not held open
                              while waiting on delinquent returns from the tribes. If
                              an ITG office field specialist indicates that the tribal
                              entity will be filing a delinquent return, the OPR office
                              Classification and Delivery Specialist will create a
                              follow-up item in the ITG Inventory Database. After a
                              reasonable period of time,20 the IRS databases are
                              researched to determine whether a return has been filed.
                              If the IRS databases show the return has been received,
                              the follow-up item is closed; otherwise additional
                              actions, such as an examination, may be considered.
                         In our FY 2005 report, we recommended the Director, ITG,
                         correct the data in the ITG Inventory Database for the
                         closed compliance check cases that were incorrectly
                         recorded as complete and revise the formula that calculates
                         the number of completed compliance checks.
                         The ITG office’s various databases for controlling cases
                         were not an effective management information system
                         During our FY 2005 audit, we determined ITG office
                         management maintained control over the sample of
                         compliance checks we reviewed throughout the process
                         from assignment through case closure. While this was
                         important for physical inventory control, the database used
                         to track cases through the compliance check process was not
                         an effective or efficient tool for monitoring the progress of
                         cases. Specifically, the database identified the field
                         specialists that compliance checks are assigned to but did



                         20
                           The OPR office Classification and Delivery Specialist decides what is
                         reasonable on a case by case basis.
                                                                                        Page 15
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         not provide incremental cycle time data or the current status
                         of actions taken to complete the cases.
                         After creation of the ITG office in FY 2000, ITG office
                         management developed several stand-alone databases to
                         manage the ITG office workload and to maintain
                         information that had been collected on ITG office
                         customers. ITG office management advised us these
                         databases perform their individual functionality well, and
                         collectively they have contributed to a reduction in cycle
                         time. However, the databases cannot be considered a
                         nationwide management information system that provides
                         the necessary inventory control over all casework. For
                         example, the databases are not integrated and do not allow
                         updates of status information between the databases. Thus,
                         it is labor intensive for the management staff to determine
                         why cases do not progress efficiently and what assistance
                         the ITG office field specialist or manager may need to keep
                         cases on track.
                         We determined the following from our review of a sample
                         of 52 of the 272 compliance check cases that were closed in
                         FY 2004:
                         •   The ITG Inventory Database is used as a master
                             inventory list for controlling compliance checks while
                             they are being worked. This Database is maintained by
                             the OPR office and is primarily used at the National
                             Headquarters level. Reports and lists of case inventory
                             are generated to monitor compliance check inventory
                             and to periodically reconcile the OPR office’s records
                             with the inventory in the field offices.
                         •   Each of the five field group managers has a database,
                             separate from the ITG Inventory Database, to control
                             cases in the group’s inventory. The group databases list
                             all work ongoing in the groups, including examinations,
                             outreach activities, and compliance checks. These
                             databases were developed by the OPR office for the
                             five ITG office field groups and contain information that
                             is not included on the ITG Inventory Database, such as
                             the current status of casework.



                                                                               Page 16
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         •    Document Transmittals21 (Form 3210) were generally
                              used to transfer all cases from originating to receiving
                              offices. The originating office either prepared the
                              Forms 3210 manually or prepared and printed the
                              Forms 3210 from a template on a local computer.
                         Because the ITG Inventory Database did not track the status
                         of compliance check cases after cases were sent to field
                         groups, ITG office management decided to manually
                         monitor cases to better control work in progress and reduce
                         the length of time cases are open. During the second quarter
                         of FY 2004, the OPR office began generating a report
                         containing a list of each group’s inventory (for example,
                         compliance check and examination cases) for the Director,
                         ITG. This new inventory report is an example of an
                         improvement ITG office management has made to the
                         Database and resulted in a decrease in overall cycle time for
                         compliance checks. The Director called each group
                         manager approximately every 2 months to discuss the
                         group’s inventory and progress on cases. One example of
                         why it may be beneficial to call the group manager would be
                         on a case that has been open for an extended period of time
                         because the particular field specialist was working on a
                         higher priority special project. While we recognize there
                         will always be a need for management to conduct workload
                         reviews, enhancement of the ITG Inventory Database
                         structure to include incremental cycle time data would allow
                         for a more targeted discussion and could lead to improved
                         productivity gains. At present, the ITG office captures
                         incremental cycle time on closed cases only. Expanding
                         tracking to include open inventory would improve the
                         currency of cycle time data and allow for an expedited
                         improvement where opportunities are found.
                         ITG office management advised us they do not plan to
                         expand the functionality of their databases because the
                         TE/GE Division Reporting and Electronic Examination
                         System (TREES) will provide case management, inventory


                         21
                           Transmittal documents list the specific cases being sent by the
                         originating office and enable the receiving office to confirm receipt of
                         the cases using the same document. The recipient should verify receipt
                         of the specific items listed, sign and date the acknowledgement copy,
                         and mail the acknowledgement copy back to the originator.
                                                                                         Page 17
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         control, and routing capabilities. However, at the time of
                         our review, the TREES was still in development and is not
                         scheduled to be piloted until January 2006. The pilot is
                         scheduled for a limited number of groups within the TE/GE
                         Division and will have only limited capability.
                         During our FY 2005 audit, we also evaluated the length of
                         time compliance check cases were open from OPR office
                         selection to closure for the population of 47622 closed
                         compliance check cases in the ITG Inventory Database. We
                         compared the time periods for compliance checks initiated
                         from the third quarter of FY 2002 through the third quarter
                         of FY 2004. Figure 1 reflects the significant decrease in
                         time to complete a compliance check, from an average of
                         390 days for those initiated in the third quarter of FY 2002
                         to an average of 123 days for those initiated in the third
                         quarter of FY 2004.
                                      Figure 1: Closed Compliance Check Cases
                              Average Number of Calendar Days Open by Quarter Initiated


                                450
                               400
                               350
                               300
                          Days
                               250
                          Open
                               200
                               150
                               100
                                50
                                 0
                                       3Q     4Q     1Q      2Q       3Q         4Q     1Q     2Q     3Q
                                      FY     FY     FY      FY       FY         FY     FY     FY     FY
                                      2002   2002   2003    2003     2003       2003   2004   2004   2004
                                                            Quarter Initiated
                                                           Average Days Open


                         Source: Analysis of the ITG Inventory Database.

                         In evaluating the length of time for the ITG office to
                         complete each step of the compliance check process, we


                         22
                           There were 481 closed compliance checks in the ITG Inventory
                         Database. Four cases were initiated during FY 2001, and one case was
                         initiated during the fourth quarter of FY 2004, so we dropped them from
                         this analysis.
                                                                                                     Page 18
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         identified one additional opportunity to further reduce the
                         overall time period. From our sample, we determined the
                         time required to make initial contact with the tribe averaged
                         108 days for the 19 cases initiated during or after the
                         third quarter of FY 2003. Although the ITG office field
                         specialists normally research IRS databases to obtain the
                         current status of a tribal entity’s account before they contact
                         the tribe, the group managers generally expect their field
                         specialists to initiate the cases as soon as possible.
                         One group manager expected the field specialists to initiate
                         new cases within 30 to 45 days of receipt. However,
                         because this time period is not tracked on the ITG Inventory
                         Database, ITG office management was not aware of the
                         extent of these delays in contacting the tribes. ITG office
                         management advised us their practice is to order compliance
                         check cases when their groups need work. There are
                         currently no time standards for the ITG office field
                         specialists to initiate contact with the tribes for compliance
                         check cases.
                         In our FY 2005 report, we recommended the Director, ITG,
                         require information identified during compliance checks
                         that should be used to update the ITG Database or the IRS
                         Master File to be recorded on the Compliance Check Report
                         and to clarify the expectation of contacting tribes as soon as
                         possible by establishing time standards for the field groups
                         to initiate compliance checks.

                         Recommendations

                         1. The Director, ITG, should clarify the guidelines for field
                            specialists to complete the risk assessment portion of the
                            Compliance Check Report to ensure more consistency
                            and reliability of the risk assessment information.
                         Management’s Response: The Director, ITG, discontinued
                         the practice of ITG Specialists conducting subjective risk
                         assessments and is redesigning the Compliance Check
                         template to focus on an objective assessment of risk.




                                                                                Page 19
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                         2. The Director, ITG, should reevaluate the process used
                            for the Compliance Check Program to address the
                            limitations in the Program. In addition, the Director,
                            ITG, should include in one of the planned compliance
                            studies a determination of whether compliance checks
                            are more beneficial for certain market segments or types
                            of customers and which customers may require other
                            compliance efforts.
                         Management’s Response: The Director, ITG reevaluated
                         the Compliance Check Program and is implementing a
                         self-Compliance Check program to conserve ITG resources.
                         In addition, a research plan has been drafted that will
                         attempt to measure the overall effectiveness of Compliance
                         Checks. This study is planned to address a broad question,
                         including whether compliance checks are more beneficial
                         for certain market segments or types of customers and
                         which customers may require other compliance efforts.




                                                                             Page 20
           The Indian Tribal Governments Office Should Reevaluate the Compliance
                Check Program to Make the Best Use of Its Limited Resources

                                                                                                 Appendix I


                         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the Internal Revenue Service Indian Tribal
Governments (ITG) office management effectively uses the ITG office Compliance Check
Program to understand customers’ needs and to identify appropriate remedies to compliance
issues.
To accomplish this objective, we:
I.      Determined if the ITG office compliance check process is effective in enabling ITG
        office management to understand their customers and identify remedies to compliance
        issues.
        A. Interviewed ITG office management to determine if they have developed a better
           understanding of their customers and have identified remedies to compliance issues
           since beginning the Compliance Check Program in Fiscal Year (FY) 2001.
        B. Reviewed ITG office work plans, reports, and other applicable documentation to
           determine if ITG office management has documented a better understanding of their
           customers and has identified remedies to compliance issues since beginning the
           Program in FY 2001.
        C. Determined if ITG office management has a plan for evaluating the accomplishments
           of the Compliance Check Program.
        D. Determined if ITG office management is developing voluntary compliance goals for
           their customer base and, if so, what effect the compliance check process will have on
           attaining those goals.
II.     Determined if the ITG office compliance check process ensures that the highest priority
        cases receive compliance checks, based on data analyses and the results of prior
        compliance checks, and that the needs of tribal customers are addressed to improve
        voluntary compliance by evaluating the results of two prior Treasury Inspector General
        for Tax Administration audits.1
        A. Determined if ITG office management’s case selection process is effective to identify
           customers most in need of compliance checks.




1
 The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to Indian Tribal
Governments Most in Need of Compliance Checks (Reference Number 2004-10-191, dated September 2004) and
The Indian Tribal Governments Office Can Improve the Effectiveness, Consistency, and Efficiency of Compliance
Checks (Reference Number 2005-10-158, dated September 2005).
                                                                                                       Page 21
         The Indian Tribal Governments Office Should Reevaluate the Compliance
              Check Program to Make the Best Use of Its Limited Resources

       B. Determined if the compliance check process is effective in obtaining information to
          understand customers’ needs and to identify appropriate remedies to compliance
          issues.
       C. Determined if the compliance check process is effective in identifying trends of
          noncompliance in the ITG office’s customer base.
       D. Determined if compliance check results are used to improve the Compliance Check
          Program, including a validation of the case selection process.
III.   Determined if the ITG office Compliance Check Program is the best approach for
       addressing compliance needs of customers.
       A. Identified the approximate number of employee resources expended to achieve goals
          set for the Compliance Check Program.
       B. Identified the approximate number of employee resources expended to achieve goals
          set for the enforcement program.




                                                                                         Page 22
         The Indian Tribal Governments Office Should Reevaluate the Compliance
              Check Program to Make the Best Use of Its Limited Resources

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
Gerald T. Hawkins, Audit Manager
Julia M. Collins, Lead Auditor
Cheryl J. Medina, Senior Auditor
Michael A. McGovern, Auditor




                                                                                      Page 23
        The Indian Tribal Governments Office Should Reevaluate the Compliance
             Check Program to Make the Best Use of Its Limited Resources

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Indian Tribal Governments, Tax Exempt and Government Entities Division
SE:T:GE:ITG
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 24
           The Indian Tribal Governments Office Should Reevaluate the Compliance
                Check Program to Make the Best Use of Its Limited Resources

                                                                                                 Appendix IV


       Previous Treasury Inspector General for Tax Administration Reviews of
          the Indian Tribal Governments Office Compliance Check Program

Closed Audit – Fiscal Year 2004
1. The Compliance Check Program’s Workload Selection Process
In Fiscal Year (FY) 2001, the Indian Tribal Governments (ITG) office began performing
compliance checks to understand customer needs and to identify appropriate remedies for
compliance issues. The ITG office generally identifies compliance check workload by one of
three methods: (1) six preset formulas and other criteria1 are used to rank and assign
tribal-related entities for compliance work based on the results of data analyses of tax return and
other information of the tribal entity,2 (2) Indian Tribal government leadership may request a
compliance check, and (3) an ITG office field group3 may initiate a compliance check when it
identifies a need for one based on the manager’s or field specialist’s knowledge of the tribe.
We reviewed the ITG office’s computer data for compliance checks as of May 31, 2004, after
learning the system of analysis had been redesigned in June 2003. We did not validate the
accuracy or completeness of the ITG office’s data for the redesigned analysis.
Audit Report
The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to Indian
Tribal Governments Most in Need of Compliance Checks (Reference Number 2004-10-191,
dated September 2004).
Status of Management’s Corrective Actions
Recommendation: The Director, ITG, should provide guidance for field group managers to
ensure an appropriate balance of work is requested to achieve the desired number of compliance
checks and coverage for their assigned tribes.
Corrective Action: To ensure tribes are not underserviced and cases that should be worked are
ordered, the ITG office has added new management reports that enable the Director, ITG, to
ascertain the workload assignments of each group on an ongoing basis. The Director, ITG, will
make directed assignments of work if an imbalance among groups is apparent.

1
  These formulas and criteria are defined in the Outreach, Planning, and Review (OPR) office’s FY 2003 Workload
Selection Plan and are designed to identify workload based on the annual ITG office Workplan data analyses. The
ITG office Workplan is based on market segments that were identified during the data analyses to be areas in need
of assistance in complying with the Internal Revenue Code.
2
  Inventory received from the OPR office may consist of any type of compliance work, including compliance
checks, tip compliance reviews, and examinations.
3
  ITG office field groups are composed of a manager and field specialists who interact with tribes to perform
outreach, education, and examination activities.
                                                                                                         Page 25
           The Indian Tribal Governments Office Should Reevaluate the Compliance
                Check Program to Make the Best Use of Its Limited Resources

Status: Completed January 19, 2005.
Recommendation: The Director, ITG, should gather appropriate data to establish cutoff data
scores for the different formulas used in the data analyses, to aid the Office of Outreach,
Planning, and Review (OPR) Classification and Delivery Specialist in determining when
one formula should take priority over another.
Corrective Action: ITG office management will be undertaking a detailed study to determine
whether cutoff scores can be identified and will contrast compliance check results from each
formula to determine where the optimal results are realized.
Status: Completed January 19, 2005.
Closed Audit – Fiscal Year 2005
2. The Execution of Compliance Checks
This review determined whether the ITG office executes compliance checks effectively and
consistently to better understand its customers and to identify appropriate remedies for
compliance issues and has developed a method to measure the impact of compliance checks on
its customer base. In this second audit, we evaluated the ITG office compliance check process
from the assignment of the compliance check to the ITG office field group through the closure of
the case by the OPR office.
Because all compliance checks are subject to quality review, we relied on the quality review
reports and did not evaluate the quality of the field specialists’ work. Additionally, we did not
validate the compliance check data in the ITG Database.4
Audit Report
The Indian Tribal Governments Office Can Improve the Effectiveness, Consistency, and
Efficiency of Compliance Checks (Reference Number 2005-10-158, dated September 2005).
Status of Management’s Corrective Actions
Recommendation: The Director, ITG, should correct the data in the ITG Inventory Database
for the compliance check cases that were incorrectly recorded as complete and revise the formula
in the ITG Database report that calculates the number of completed compliance checks, require
information identified during compliance checks that should be used to update the ITG Database
or the Internal Revenue Service Master File5 to be recorded on the Compliance Check Report,


4
  The ITG Database was developed over the past several years and contains data from the IRS main database
(Master File), the Bureau of Indian Affairs, and other sources on Indian tribal governments and their related
enterprises. The database records contain more than 200 data fields and include information such as tribal entity
data, filing requirements, and line item information from filed returns such as wages paid. The ITG Database is
made up in part by the Inventory Database, the Outreach Assignment Database, and the Tribal Compliance
Database.
5
  The Internal Revenue Service database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                           Page 26
          The Indian Tribal Governments Office Should Reevaluate the Compliance
               Check Program to Make the Best Use of Its Limited Resources

establish time standards to clarify the expectation of contacting tribes as soon as possible to
initiate compliance checks, and consider automating the document transmittal process.
Corrective Action: ITG office management corrected the data for the compliance check cases
that were closed with the incorrect closing code and revised the database formula that calculates
the number of completed compliance checks.
Status: Completed.
Recommendation: The Director, ITG, should require information identified during compliance
checks that should be used to update the ITG Database or the IRS Master File to be recorded on
the Compliance Check Report. This new requirement would not affect the practice of emailing
the information to the OPR.
Corrective Action: ITG office management is in the process of revising the ITG work
templates. The revised Compliance Check template will include a summary sheet to capture all
of the data updates reported during the compliance check.
Status: Due January 15, 2006.
Recommendation: The Director, ITG, should clarify the expectation of contacting tribes as
soon as possible by establishing time standards for the field groups to initiate compliance checks.
Corrective Action: The ITG Director issued guidance requiring initial customer contact within
60 days of case assignment to the group.
Status: Completed.
Recommendation: The Director, ITG, should consider automating the document transmittal
process.
Corrective Action: Tax Exempt and Government Entities (TE/GE) Division management
considered automating the document transmittal process, and decided to address this issue during
future development of the TE/GE Reporting and Electronic Examination System.
Status: Completed.




                                                                                             Page 27
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources

                                                                Appendix V


           Management’s Response to the Draft Report




                                                                        Page 28
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources




                                                                        Page 29
The Indian Tribal Governments Office Should Reevaluate the Compliance
     Check Program to Make the Best Use of Its Limited Resources




                                                                        Page 30
